IN THE SUPREME COURT OF THE UNITED STATES

MARSH, MARCUS TERRELLE
Petitioner

vs.

No: 19-0774

USA
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
December 26, 2019
cc:
JOSHUA SNOW KENDRICK
KENDRICK & LEONARD, P.C.
419 VARDRY STREET
P0 BOX 6938(29606)
GREENVILLE, SC 29601
ARTHUR K. AIKEN
ATTORNEY AT LAW
2231 DEVINE STREET
SUITE 201
COLUMBIA, SC 29205

